                               NATIONAL SCIENCE FOLINDATION
                                   4201 WILSON BOULEVARD
                                  ARLINGTON. VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL                        June 29,2000

  TO:               The File


  FROM:             SA


  SUBJECT: Case Closeout, #I-00030006




      allegations were that information in the                             of the patients'
      charts were changed in an improper manner: informition was entirely obliterated          -
      with ink and, in one instance, changed with white-out. The nature of the information -
      changed included lab results, test results, and medical clearances, and the information,
      was allegedly changed so that the original information could not be discerned.I




      patient charts. This review revealed that information contained in the

                          as altered in numerous instances. The alterations were made in
     such a way so that it was impossible to determine who made the changes and what
     information was being obliterated. For example, the information was frequently
     entirely obliterated with scribbling. In one instance, a                 was 'changed
     from "                           " to "                  " with the use of white-out.

 3. This agent also interviewed two individuals,
                                                   h                   ,who requested that
    their identities remain confidential. The individuals stated t at, since the changes
    were made in the manner described above, they could not determine if the changes
    were made based on poor medical judgments or carelessness. They questioned the
    physicians failure to properly justify the changes he made; his failure to annotate the
    chart with a justification or supporting documentation; and his method of making the
    changes in a manner so that it became impossible to determine the content of the
    originally recorded information. The individuals expressed that their primary concern




    ,
                              atient. As such, they were troubled that an individual might
                              with a medical condition that should have disqualified
    himher. However, since there were unable to determine the original information in


                 my
    the patients7charts due to the manner in which the changes were made, they were
    unable to de ermine 'n fact, the individual would have been
                                                             .

4. In April 2000, Dr.                                                          reviewed copies
   of a roximately 2 medical records to which obliterating cnan s ad been made.
               conc~u!d     that the changes that had been made to t h e e d i c a l forms were
   ma e as a result of differences of
  r e l a t e d that the@          nurses and           ad differing opinions on
                ed or whe er particular
                   In an e-mail message dated June
   stated that the changes did not appear to be malicio
   submitted by the patient, and appeared to affect the         adqinistrative sections only
   (of the patients' charts).

                                                              obliterating some of thi
                                                              the new NSF support




                                                       ,
                                                                        for example,
   original information not obliterated; any changes noted by datelperson making
   changes.

6. In the same e-mail message of June 5,2000, Dr.          stated that, based on his
   review of the information, he believed that the administrative aspects of the
                      have been mpdified appropriately to minimize these problems fr6m
   recurring in the future.      9

7. Based on the OIG of review of the medical charts, interviews of the parties described,
   and the information as stated above, no further action by the OIG is necessary at this
   time. This case is closed.
                              I
